<html>
<title> - FIFTY YEARS SINCE THE GREAT ALASKA EARTHQUAKE: THE ROLE OF FIRST RESPONDERS IN CATASTROPHIC DISASTER PLANNING</title>
<body><pre>[Senate Hearing 113-533]
[From the U.S. Government Publishing Office]




                                                        S. Hrg. 113-533

                   FIFTY YEARS SINCE THE GREAT ALASKA
   EARTHQUAKE: THE ROLE OF FIRST RESPONDERS IN CATASTROPHIC DISASTER 
                                PLANNING

=======================================================================

                                HEARING

                               before the

                       SUBCOMMITTEE ON EMERGENCY
 MANAGEMENT, INTERGOVERNMENTAL RELATIONS, AND THE DISTRICT OF COLUMBIA

                                 of the

                              COMMITTEE ON
                         HOMELAND SECURITY AND
                          GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE


                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                   FIELD HEARING IN ANCHORAGE, ALASKA

                               __________

                             APRIL 4, 2014

                               __________

                   Available via http://www.fdsys.gov

       Printed for the use of the Committee on Homeland Security
                        and Governmental Affairs

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                         U.S. GOVERNMENT PUBLISHING OFFICE 

89-525 PDF                     WASHINGTON : 2014 
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001











        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

                  THOMAS R. CARPER, Delaware Chairman
CARL LEVIN, Michigan                 TOM COBURN, Oklahoma
MARK L. PRYOR, Arkansas              JOHN McCAIN, Arizona
MARY L. LANDRIEU, Louisiana          RON JOHNSON, Wisconsin
CLAIRE McCASKILL, Missouri           ROB PORTMAN, Ohio
JON TESTER, Montana                  RAND PAUL, Kentucky
MARK BEGICH, Alaska                  MICHAEL B. ENZI, Wyoming
TAMMY BALDWIN, Wisconsin             KELLY AYOTTE, New Hampshire
HEIDI HEITKAMP, North Dakota

                  Gabrielle A. Batkin, Staff Director
               Keith B. Ashdown, Minority Staff Director
                     Laura W. Kilbride, Chief Clerk
                   Lauren M. Corcoran, Hearing Clerk


SUBCOMMITTEE ON EMERGENCY MANAGEMENT, INTERGOVERNMENTAL RELATIONS, AND 
                        THE DISTRICT OF COLUMBIA

                      MARK BEGICH, Alaska Chairman
CARL LEVIN, Michigan                 RAND PAUL, Kentucky
MARK L. PRYOR, Arkansas              JOHN MCCAIN, Arizona
MARY L. LANDRIEU, Louisiana          ROB PORTMAN, Ohio
JON TESTER, Montana                  MICHAEL B. ENZI, Wyoming
HEIDI HEITKAMP, North Dakota
                     Pat McQuillan, Staff Director
                Brandon Booker, Minority Staff Director
                       Kelsey Stroud, Chief Clerk













                            C O N T E N T S

                                 ------                                
Opening statement:
                                                                   Page
    Senator Begich...............................................     1

                               WITNESSES
                         Friday, April 4, 2014

Hon. W. Craig Fugate, Administrator, Federal Emergency Management 
  Agency.........................................................     4
John W. Madden, Director, Alaska Division of Homeland Security 
  and Emergency Management.......................................     6
George Keeney, Fire Chief, Valdez Fire Department................    15
Victor Joseph, President and Chairman, Tanana Chiefs Conference..    18
Danita Koehler, MD, Chair, Rural Committee, National Association 
  of Emergency Medical Services Physicians.......................    20
Victor Joseph, President and Chairman, Tanana Chiefs Conference..
Michael K. Abbott, Assistant Superintendent, Anchorage School 
  District.......................................................    24

                     Alphabetical List of Witnesses

Abbott, Michael K.:
    Testimony....................................................    24
    Prepared statement...........................................    54
Fugate, Hon. W. Craig:
    Testimony....................................................     4
    Prepared statement...........................................    29
Joseph, Victor:
    Testimony....................................................    18
    Prepared statement...........................................    44
Keeney, George:
    Testimony....................................................    15
    Prepared statement...........................................    42
Koehler, Danita, MD:
    Testimony....................................................    20
    Prepared statement...........................................    50
Madden, John W.:
    Testimony....................................................     6
    Prepared statement...........................................    38

 
                   FIFTY YEARS SINCE THE GREAT ALASKA
                     EARTHQUAKE: THE ROLE OF FIRST
              RESPONDERS IN CATASTROPHIC DISASTER PLANNING

                              ----------                              


                             APRIL 4, 2014

                               U.S. Senate,        
              Subcommittee on Emergency Management,        
                         Intergovernmental Relations,      
                          and the District of Columbia,    
                    of the Committee on Homeland Security  
                                  and Governmental Affairs,
                                                    Washington, DC.

              OPENING STATEMENT OF SENATOR BEGICH

    Chairman Begich. Good afternoon, let me go ahead and call 
the meeting to order. I want to welcome you all here. This is 
the Subcommittee of Emergency Management, Intergovernmental 
Relations and the District of Columbia. Obviously, we are not 
going to be talking about the District of Columbia today.
    Most of our witnesses today are Alaskans, but I want to 
welcome to our State for his first time Federal Emergency 
Management Agency (FEMA) Administrator Craig Fugate. We really 
thank you for being here. He has had already a quick whirlwind 
tour of Alaska.
    We have taken him out to the Valley and saw some activity 
out there, met with some tribal community leaders and after 
today, he will literally be on a plane in a few hours to 
Washington State for the disaster that they are experiencing 
there with the mud slides. So we thank him for taking his time 
out here. We know it is a long trip from Washington to be here 
and his job requires him to travel quite a bit. So thank you 
very much for being here.
    We are meeting here today just a week after communities 
around Alaska marked the solemn anniversary of ``The Great 
Alaska Earthquake''. It has been 50 years since the 9.2 
magnitude quake centered 75 miles east of Anchorage and rocked 
our State. The quake also triggered tsunamis inundating our 
coastal villages.
    Happening only a few years after Alaska became a State, our 
entire focus on how to respond to and recover from disasters 
has been shaped by the earthquake. The lessons we learned have 
had a big impact on how our State has developed and how we 
continue to plan for disasters.
    In 1964, Alaska was a young State with a population of 
about 225,000. Since then, we have more than tripled our number 
and our economy has grown significantly and the State's 
tremendous and critical resources like oil and gas, as well as 
our military strategic location.
    I can remember, I was only two during the earthquake, but 
it was stories afterwards, because for the younger students 
here, in those days, we did not have DVDs, digital cameras. We 
had slide shows. So we had slides and some of the folks that 
are my age might we remember this you would get a carousel of 
slides and you would show them and all of your trips and I 
remember growing up seeing the earthquake.
    In our house, I lived in east Anchorage, and the only thing 
that broke: we had these three swinging lights that went back 
and forth and smacked into each other and that's only because 
we were on gravel soil, but I saw these incredible photos of 
Turnagain Arm and what happened in Valdez, which I know we will 
hear something about here and what Valdez is doing on 
preparedness, but it is an amazing--I can still remember 
Penney's, for those that go downtown at all, the Penney's side 
that faces the garage that faces the store had just peeled 
right off. The side of the Penney's store just peeled right off 
like a piece of paper coming off of it because the earthquake 
was damaging, but it was incredible to see that and where we 
look back now, the impressive growth over the last 50 years, an 
achievement related to all Alaskans, that should be proud of, 
but it does raise the stakes of disaster much higher, because 
we have more to protect and more to be prepared for.
    With additional important infrastructure and assets, 
there's additional stress on local and State capacity to assess 
our vulnerabilities and plan to respond to disasters. First 
responders, the police, fire fighters and medical personnel, 
who are essential to any successful response are vital assets.
    They have worked hard over the years to plan and equip 
themselves to respond to many potential threats to our State 
and one of the best ways, the local, State and tribal and 
Federal first responders can test their capabilities they have 
built over the years without a real-world catastrophic disaster 
is by participating in exercises. In addition, the role of an 
educated engaged public has been critical in successful 
disaster response.
    Later today, we will hear about schools, what schools are 
planning for disasters, as well as discuss the recent responses 
to flooding in Galena and in the incident in Valdez with regard 
to the avalanche.
    This past week, the State, Federal, tribal and local 
emergency management officials came together during a recent 
Alaska Shield exercise, which recreated the massive 1964 
earthquake. Preventing loss of life is the most important goal, 
but we must also make sure families and communities have the 
resources they need to recover.
    Failure to provide those resources has the potential for 
devastating long-term effects on the economic, cultural and 
social fabric of our State. Our communities faced this very 
issue last spring when flooding along the Yukon forced citizens 
to evacuate hundreds of miles away to Fairbanks.
    Assuring that all families who wanted to return to their 
homes were able to was not just an effort to keep the community 
intact, it was an effort to assure jobs were not lost, schools 
were not empty and homes were not abandoned.
    Alaskans are tough and independent people, but we know the 
strength of our communities is the most important asset, both 
before and after a disaster. Assistance from external 
organizations may arrive in communities in the Lower 48 within 
a matter of hours after a disaster. Alaska's vast geography and 
the transportation challenges mean that many Alaskans must be 
prepared to cope for days without significant Federal 
assistance.
    This reality means smart planning. Involving all members of 
the community is essential. Our communities do not have the 
room for error that those in the Lower 48 may have and I am 
glad that our witnesses for today's hearing represent the 
diverse collection of these communities.
    Response leaders, State emergency management leaders, 
tribal organizations, local fire officials, emergency medical 
services (EMS) professionals and school administrators all play 
a critical role in community preparedness. They are all looked 
to and relied upon to support swift response and recovery 
efforts. I thank each of you for your hard work you have 
already done to prepare our communities and to respond to past 
disasters.
    While predicting catastrophic disasters like earthquakes is 
nearly impossible, planning for the aftermath must continue to 
be a priority for all members of a first responder community.
    I am encouraged by the work our emergency response 
officials are currently doing and I look forward to examining 
the FEMA uses and the lessons learned from Alaska's Shield to 
support this planning from the Federal level.
    I hope the exercise and Administrator Fugate's trip have 
highlighted the economic, transportation, communication and 
cultural realities that make Alaska the great State that it is. 
I will continue to urge FEMA to recognize the unique needs that 
may not fit neatly into existing policy boxes and to increase 
its adaptability to States like ours.
    Just as we did after the 1964 earthquake, Alaska will keep 
moving forward. We will keep learning, keep improving and we 
will emerge better prepared to plan for and respond to any 
disasters that may occur in our great State.
    So let me go ahead and again recognize our panels. We have 
two panels. The way this will work today, and we thank you very 
much again to all the panels that are participating. I will ask 
the first panel over here to each give their testimony. I will 
do a few questions and then I will ask the second panel to do 
their testimony, ask a few questions and then, the way I have 
done these before is there may be a little crisscross; I may 
hear something over here that I want to ask this panel or vice 
versa.
    It is a formal field hearing, but I try to keep it a little 
more relaxed in the sense of how we are trying to do this 
because I think it is an opportunity for all of us to learn and 
improve, especially around the issues of catastrophic disaster 
planning.
    So let me now start with Administrator Craig Fugate, who's 
the Administrator of the Federal Emergency Management Agency 
with the U.S. Department of Homeland Security (DHS). 
Administrator.

TESTIMONY OF CRAIG FUGATE,\1\ ADMINISTRATOR, FEDERAL EMERGENCY 
    MANAGEMENT AGENCY, U.S. DEPARTMENT OF HOMELAND SECURITY

    Mr. Fugate. Thank you, Mr. Chairman and the other thing we 
normally do at these hearings is that we have these long 
written testimony. So I will formally ask Mr. Chairman to 
accept my written testimony and we will not read that verbatim.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Fugate appears in the Appendix on 
page 29.
---------------------------------------------------------------------------
    Chairman Begich. Without objection.
    Mr. Fugate. Alaska may be one of the youngest States, but 
you joined a particular form of government, is how some people 
describe it, and I am pretty sure, Senator, if I go to most any 
Governor, to any senator and talk about their State, there's 
always something unique about their State that you have to 
factor in. And for those of you that didn't really pay too much 
attention in your civics class, what's unique about the United 
States is we are just that, we are not a national government.
    We are a Federal Government, where our constitution said 
those powers not reserved to the Federal Government belong to 
the States and the people and part of that is the ability and 
responsibility and the authority that is arised from each 
State's constitution by how they govern themselves in disasters 
and where those emergency powers come from and each State based 
it upon their history, their needs and in some cases, their 
history of dealing with disasters.
    So when people look to Washington, DC. sometimes for one-
size fits all answers to problems, that's not how our 
government's established. It has to recognize that each State 
is unique; each State is different and that our Federal form of 
government recognized that, that it could not be just a 
national government where all decisions can be made in D.C.
    We are a representative government where we elect our 
senators and our representatives to help govern, but this is 
also the basis of our disaster model. The Federal Government's 
not in charge. A lot of times, the national media, when there's 
a disaster, you see FEMA and people think, ``Well, FEMA's in 
charge.'' We are not in charge. The Governor and the State 
constitution and those authorities vested in local officials, 
they are the ones managing that response. They are the ones 
that are leading it.
    Our job at the Federal Government is to support that. We do 
not come in to take over. Our job is to support, but we also 
have to be cautious and recognize that you, as taxpayers, 
expect this to be a shared responsibility, a responsibility 
that locals and States also share, including funding for.
    So we also try to make sure that we support, but not 
supplant local and State responsibilities, and the more complex 
the disaster, the lines get blurred. So we have also learned 
that we can not wait until it is so bad and overwhelms a State 
before the Federal Government gets ready or begins to prepare.
    We work together as one team, but we have to understand, 
our job at the Federal level is not that we are going to come 
in and take over. Well, first of all, we would not even know 
what to do when we got here in many cases.
    Our job is to come in and support the Governor and their 
team and work with the local officials, and this can be very 
expensive. Your Senator is part of one of the more substantial 
changes to how we fund disasters. Previously, we had to go get 
additional funds every time there's a disaster because we 
barely had enough money to operate. This could disrupt previous 
disasters, and it meant that there could be delays in response 
waiting for money to come in.
    Congress has taken a different approach over the last 
couple of years and they have fully funded what many people you 
talk about disaster response, there's a fund. It is the 
Disaster Relief Fund (DRF). It is very unique in that it is 
funded, not only for disasters we have, but it is also the 
funding for the disasters that occur every day in this country 
and to make sure we have enough funds to respond to that no-
notice earthquake, that catastrophic event.
    That funding allowed us to respond to Hurricane Sandy 2 
years ago without having to shut down every other disaster we 
were working on and it gave Congress time to deliberate and 
find additional funds for the full recovery, but it is that 
shared responsibility that as a Nation, we come together to 
support States in disasters.
    Our primary mechanism for doing that are those funds which 
the Senator has been part of; is ensuring that those funds are 
there. But our job at FEMA is to coordinate on behalf of the 
Governor's request, the Federal resources and Federal support 
that they need to respond to, but also recover from disasters.
    So those people that think that somehow FEMA's in charge 
and FEMA does everything, we only do it as part of a team and 
we do it through support of the Governor's team to the local 
officials. Sir.
    Chairman Begich. Thank you very much. Let me now introduce 
John Madden, Director of Alaska Division of Homeland Security 
and Emergency Management, Alaska Department of Military and 
Veteran Affairs, but also, John, you just finished and did your 
term just end, is that right?
    Mr. Madden. Yes, it did.
    Chairman Begich. It's the National Chair of all the 
emergency managers.
    Mr. Madden. There are people within my position in every 
State.
    Chairman Begich. Right.
    Mr. Madden. And it's the National Emergency Management 
Association (NEMA), of which I just finished a year as their 
President.
    Chairman Begich. And let me just say, before you do your 
testimony to the group here, and just in general, you have been 
to my committee in D.C. more than once and other opportunities, 
not only representing Alaska, but on the national end, and for 
Alaska to have a national representative is just a real plus. 
So thank you for your work you have done there and thank you 
for kind of--I know you represent the national net, but I 
always knew when you were there, we are going to be talking 
about Alaska issues, so thank you for kind of having dual hats 
at those meetings I had.
    Mr. Madden. Well, thank you, sir. It is very widely known 
within the Nation that if you can get something to work in 
Alaska, you can get it to work anywhere.
    Chairman Begich. There we go. That is the motto, if you can 
do it in Alaska, you can do it anywhere.

TESTIMONY OF JOHN W. MADDEN,\1\ DIRECTOR, DIVISION OF HOMELAND 
               SECURITY AND EMERGENCY MANAGEMENT

    Mr. Madden. And that's why it Is a good opportunity for us 
to address this topic; not only of the first responder, but the 
second responder and then jobs I call the sustaining responder 
and probably the restoring responder.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Madden appears in the Appendix on 
page 38.
---------------------------------------------------------------------------
    This nation and my State has a proud history and the 
heritage of our citizens stepping forward and being organized 
for swift response with the hazards we face, but through the 
years, we have learned some very hard lessons. If we wait to 
respond, then our people suffer and our priority and our 
property is laid waste, but this approach for the good of the 
Nation is fading away and new approaches are coming forward to 
prepare for the inevitable and even the unpredictable events 
that come before us.
    The traditional perceptions of first responder are the fire 
fighter, the police officer, the emergency medical provider, 
but our society and economy are becoming increasingly more 
complex. So we must add others to that; the electrical linemen, 
the transportation providers, the logisticians and others, as 
well as our community leaders, but even with this expanded 
enterprise, we cannot meet the extreme needs of the public just 
by the acts of heroic individuals, nor can we isolate or have 
random acts of response that cannot serve the greater needs.
    First responders do not stand alone. So we believe in this 
State that our system supporting them could not be. We need the 
systems to support the first responder through training, 
equipment, sustainment, planning and exercises. For an example, 
we in Alaska have formed several task forces in peacetime that 
we anticipate needing and using in the disaster in which will 
enhance the first responder.
    Medical and health, housing and shelter, energy, 
transportation; these standing forces study the likely 
consequences and try to solve the problems before they come 
about and as you said in your opening remarks, sir, to 
commemorate the 50th anniversary of the 1964 earthquake, we 
just finished the largest, most complex exercise our State 
has--or ever designed, the Alaska Shield and in this exercise, 
we recreated the geology of 1964, but we placed it in today's 
built environment, today's technology, today's supply lines. 
And we tested our plans, and stressed our partnerships, and 
challenged our assumptions.
    We rigorously tested the concept of the dual status 
commander where a general officer of the Alaska National Guard 
is empowered by both the Governor and the President to command 
Guard and active duty troops, and their missions they received 
during this exercise far exceeded the capabilities of either 
one or the other and could only be done jointly.
    So with this definition and the role of the first 
responder, it must expand to include those who lead our 
communities in our State. In this exercise, Governor Parnell 
was a first responder when within minutes of the event, he gave 
me clear direction and set the priorities for the State.
    Major General Katkus, the Adjutant General, was a first 
responder when he coordinated the integration of all the active 
components with the Secretary of Defense. My operations team 
members were first responders when they deployed across the 
State to serve at the side of mayors and city managers and 
giving them counsel and support.
    Brigadier General Wenke, the dual status commander, was a 
first responder as he shaped the readiness and effectiveness of 
all of the uniformed forces within our State. The members of 
the FEMA Alaska area office were first responders, as they 
supported the State in the early hours as the vanguard of the 
Nation rising up to support the State.
    Lieutenant General Handy of the Alaskan Command and Major 
General Shields were the first responders when we worked to 
create better methods on the fly to integrate our missions.
    We strive toward the day when every Alaskan and every 
American when asked their role in an emergency will answer with 
pride, ``I am a first responder,'' and that they contribute 
through learning CPR and first aid, building an emergency kit, 
a commitment to help their neighbors when they cannot help 
themselves and the first responder. Whether in the biggest of 
our cities or the most remote of our wilderness and all the 
variations in between, must be ready to respond with the needed 
swiftness and effectiveness to make a difference in life and 
death. And we, the leaders of the Nation and our States and our 
tribes and our local governments, must work together to ensure 
our efforts to prepare and our actions to alleviate suffering 
are second to none.
    Chairman Begich. Thank you very much, John. I have a few 
questions. I will say also something else just for the 
audience's knowledge, usually the way these hearings work, too, 
usually the--I am here, all these panels are there with your 
back to them. We have done something different when we do them 
here in Alaska. I like to have this format so people see the 
conversation, rather than seeing the backs of heads all the 
time. So that's the way we like to do it here.
    Let me, first, Administrator Fugate, if I can ask you just 
a couple--we had a conversation just before we came out here 
with the tribal community and talked about some of their 
issues, but can you--I know we have talked about this. We did 
not elaborate too much, but can you tell me how it is working 
now with the new language with regard to tribes who are now 
able to directly ask, and just kind of--I know you have done a 
couple, but what have been those problematic areas that you 
think you have to kind of still plow through as you are working 
through these disasters with tribes doing direct requests from 
them?
    Mr. Fugate. Well, what the Senator is referring to is with 
the amendments of the Stafford Act, which is the authorizing 
language of the disaster programs, it changed the definition of 
federally recognized tribes from political subdivisions of the 
State to having the ability to be recognized as sovereign 
governments with the United States, and it is not a small 
change.
    What it does is allows tribal governments whose sovereignty 
is not underneath the State. It is separate. It is a 
recognition through Federal law that they are separate 
governments and that they have certain rights under the 
Stafford Act to request disaster declarations.
    So when the law was passed, we did not have any structures 
for tribes to operate under, except for the State structure. So 
what happened, Senator, the first declarations that came 
through in--and I think there was a lot of information going 
out through a lot of the National Congress of American Indians 
and other Associations that the law had passed.
    Tribes came in and we made a decision of whether postponing 
accepting applications until we have draft rules. We just used 
the rules as written. So they came in just like a State would 
come in. They had to meet their per capita thresholds. They had 
to have hazard mitigation plans.
    Chairman Begich. Their match requirements----
    Mr. Fugate. Their match requirements, all their 
certifications and what we found by and large is what we 
thought we would see was for larger tribal governments, this 
was something they were anticipating, prepared to do, but we 
also recognized that this is a very high threshold for many 
smaller tribes and so we are in the process of now developing 
draft rules of how can we provide more flexibility, but 
recognize that it is still a shared responsibility.
    There's still cost-share requirements. There's still the 
requirements to have mitigation plans and the things that 
States are held to, because again, this is shared 
responsibility between the tribal government and the Federal 
Government and we are responding to disasters, but the most 
important thing is we want to make it optional.
    We know that in some cases, States do provide cost-share. 
That may not be there if they come separate from the State and 
again, this had to apply across all of the tribes, not just 
those here in Alaska. So it was inherently flexible self-
determination, but it does recognize their sovereignty.
    Chairman Begich. Let me ask you, if I can, a couple more 
things. We have had some disasters, most recently the Galena 
flooding that occurred, and there was a couple of things that 
came, at least when I was out there, but also heard from people 
a couple of things; logistics, personnel on the FEMA end and 
here's the two kinds of broad examples.
    On the personnel end, sometimes not fully understanding 
kind of the Alaska way of life and the culture and I think we 
heard actually in a meeting earlier that Victor laid out kind 
of, just because the group is quiet does not mean they are 
accepting, it is more of a listening process. So that's the 
first point, and then I will ask the question to both of these, 
and then the other one was how to get resources out to some of 
these remote areas and remote or not; I mean even here in the 
urban areas like Anchorage or Fairbanks, or Juneau or Kenai, or 
so forth, the logistics in winter months can radically change 
in how you can move things.
    Can you give me a sense of what you have done internally? 
For first, the personnel part of it, how they become more aware 
of the local environment they are entering into and two, then 
on the logistics, how to compensate or deal with some of these 
unique logistics issues and I mean, I was just having a 
conversation with someone just literally as we were walking out 
of the last meeting and we had to get to three villages or not 
we, but FEMA had to get to three villages and their response 
was, ``Well, we have to take a commercial flight.'' Of course, 
that's not happening all in one day. That's what they wanted to 
do in one day, and yet, the Borough said, ``We'll loan you our 
plane.'' It's a government-owned plane, but they could not take 
it because it was considered--I do not know what it was 
considered, gift or something, but I mean, I just went through 
this experience up in Wainwright where I could not get the 
plane from Barrow to come get me. So I had to take a charter 
all the way from Wainwright to Anchorage, which is not a cheap 
operation, but I would have been 2 days stuck out there.
    So can you, again, the logistics part on both resources 
and/or that example I just gave you up north, and then the 
other is personnel and how they become more--what are you doing 
to make them more aware of the surroundings and the individuals 
that are working with them, I mean as----
    Mr. Fugate. Well, we do have----
    Chairman Begich. Does that make sense, those questions?
    Mr. Fugate. Yes, sir.
    Chairman Begich. OK.
    Mr. Fugate. Again, Alaska does have a very small footprint, 
but we have permanent staff up here, a very small office.
    Chairman Begich. Right.
    Mr. Fugate. Most States do not have that. Part of the 
regional office in Seattle was to work with the States and 
building that competency, but because of the size and geography 
of Alaska, it is still a challenge. So we are looking 
particularly with tribal, we are working with a region now on 
additional staff tied to all the disasters we have here, and as 
you saw in our budget, we are doing a pretty significant shift 
internally in our budget across the Nation to provide more 
permanent staff in the tribal, but to be honest with you, sir, 
sometimes the message gets confused between being good stewards 
of the public's tax dollars and understanding you are in a 
different environment.
    Chairman Begich. Right.
    Mr. Fugate. So things that people get conditioned into of 
driving down our overhead becomes counterproductive if you do 
not know when you have to adjust, because in many cases, it 
would be cheaper for us in that situation just to charter 
aircraft and move our teams around versus doing commercial, but 
because in the Lower 48, you would not think of doing that----
    Chairman Begich. Right.
    Mr. Fugate. You tend to get locked into being cost 
effective driving decisions, particularly if we are just 
dealing with a recovery event where there's not immediate life 
threat/life savings. So it is changing that mind set and a lot 
of time, headquarters is looking at something and looking at 
cost going, ``Well, this doesn't make sense,'' and the people 
in the field are going, ``Well, it makes perfect sense if you 
know what we are doing with it.'' So it is trying to make sure 
that we are good stewards of the money. We just don't want to 
spend money, but also making sure that in the operational 
environment that we are in, we may have costs that are going to 
be higher.
    Chairman Begich. Is there----
    Mr. Fugate. It is just you have to make sure that you 
understand that going in, versus we are looking at this as, how 
do I maintain lower costs? Well, it is not going to save you 
much more money because you are not going to get things done.
    Chairman Begich. Yes, let me give you an example in this--
if this makes sense and then maybe a question off of this, but 
for example, to go from Barrow to Anchorage, we had seven 
people, it would have been about $5,000 commercial flight. We 
were trapped in Wainwright. It could have been 2 days. We 
anticipated afterwards we did learn it would have been 2 days 
we would have been stuck up there, doing that same flight out 
of Wainwright for the seven of us, it was $16,000.
    Mr. Fugate. Yes.
    Chairman Begich. So when you present that back in 
headquarters, they look at that and they go, ``Are you kidding 
me?''
    Mr. Fugate. Yes.
    Chairman Begich. Wait for the commercial flight.
    Mr. Fugate. Right.
    Chairman Begich. And the problem is, how do you quantify 
that 2 days?
    Mr. Fugate. It goes back to the mission.
    Chairman Begich. Is that the----
    Mr. Fugate. Yes, that's part of the challenge, is getting 
people that understand that when we are in a disaster response, 
we need to be doing things expeditiously, particularly if we 
have things we need to get going to get to a point of 
stabilization.
    Chairman Begich. Right.
    Mr. Fugate. I mean, I would be kind of reluctant if we were 
merely in the process now, projects are working and----
    Chairman Begich. Right.
    Mr. Fugate. We are just doing the inspections, but if we 
are still in a response phase, it is----
    Chairman Begich. Then you have to measure those----
    Mr. Fugate. Yes.
    Chairman Begich [continuing.] On time, because time is 
value----
    Mr. Fugate. Yes, in your committee and in the whole 
committee you sit on, one of the things you look at is 
effectiveness and efficiency of fraud, waste and abuse.
    Chairman Begich. Right.
    Mr. Fugate. So you have one mind set day-to-day where you 
are trying to minimize the cost to the taxpayers of how you are 
doing business and then when you get into a disaster, in many 
cases, you do not throw caution to the wind, but you have to 
shift gears.
    Chairman Begich. Right.
    Mr. Fugate. But so much of your day-to-day is written on 
the day-to-day reducing that cost that you sometimes get that 
mismatch. So what we try to do is make sure we are doing a 
better job of giving that authority to our Federal coordinating 
officers that until we are stabilized, we are going to have to 
do things that would not be financially, the most efficient way 
to do something, but the outcome is what needs to drive that, 
not just the cost of that travel.
    Chairman Begich. Is it helpful, and I will end on this 
question with you, Administrator, and that is, is it helpful--I 
know Congress knows no administrator likes to hear what I am 
about to say, but I think maybe as a rule, I think we do not do 
enough of and that's we do not do enough oversight and maybe 
usually we respond, something bad happens and then we kind of 
jump on everybody because one item did not work and then we are 
going to yell at everybody, but what I have tried to do, at 
least in the two subcommittees I Chair, is have this process of 
review and oversight and more of a, let's have more of this 
aired, rather than--is that a role maybe this committee could 
take in the sense that as--to help educate folks on these 
unique cost issues?
    I mean, I was in one meeting, as you know, and I think 
Shaun Donovan or who got beat up by one of my Members, I think 
it was Secretary Donovan, on a purchase, and you know, when you 
are in the moment of a disaster, you are trying to manage time. 
Sometimes money becomes secondary. Time is more valuable, 
especially in a winter climate where you could have disaster 
and it is 30 below by the evening, you have lost 4 hours. You 
could literally have created a second disaster.
    Not that I would subject more Members to oversight or----
    Mr. Fugate. Yes.
    Chairman Begich. Or the poor staff here to do things like 
that, but is that a better--I mean, how do we get this better--
explanation out there than the----
    Mr. Fugate. Senator, we are always going to have the got-
you moments of things when people look at it and go, ``How 
could they possibly have done that? What were they thinking,'' 
but you are absolutely right on speed. I came up with this down 
in Florida when I realized that speed was paramount 
stabilization and basically, you can have it cost effective, 
you can have it accurate or you can have it fast. Pick one.
    That in responding to this earthquake scenario, if we 
waited for the State's typical assessments in requesting 
resources, things would not have been in the pipeline fast 
enough.
    Chairman Begich. Right.
    Mr. Fugate. And in some cases, you are going to be flying 
things here that would normally come in by ship, and that cost 
of that air traffic will in some cases exceed the actual price 
of the produce retail.
    Chairman Begich. Right.
    Mr. Fugate. But the fact is----
    Chairman Begich. Galena was an example, some of the freight 
costs were----
    Mr. Fugate. Yes. You are having to make these decisions 
based upon what is it taking to stabilize the incident. Now 
once you get stabilized and the ports are back up and the conex 
containers are coming in, you stop flying stuff.
    Chairman Begich. Right.
    Mr. Fugate. But when people look at, ``Well, what did that 
bottle of water cost you,'' and this is what they gave me in 
Florida. They said, ``Well, that bottle of water in Florida in 
the 2004 hurricanes cost you $10. That's insane. You could have 
gone to the store and bought it.'' I'm like, ``You don't 
understand. There were no stores to buy that water from.''
    Chairman Begich. Right.
    Mr. Fugate. We had a community that was cutoff.
    Chairman Begich. Right.
    Mr. Fugate. The roads were wiped out, a quarter of a 
million people in high heat, no water. We were flying it by 
Chinooks. There was no other way to get the water there, but I 
think as the oversight, being able to ask those questions, get 
those responses, so that we are held accountable, but people 
understand that in disaster response, sometimes you are going 
to do expensive extraordinary things to stabilize a situation, 
understanding that the normal order of business, the normal 
order of procurement, the normal safeguards, can actually be 
counterproductive and so you have to have that balance.
    We need to be responsible to the taxpayer not to waste, but 
we are also dealing with a situation where precision is not 
necessarily going to happen. If you wait for all the 
information, it may be too late.
    Chairman Begich. Right or it creates a second disaster.
    Mr. Fugate. Yes.
    Chairman Begich. Yes. Thank you very much. John, thank you, 
as always, and I am curious, you just had the pretty 
significant training exercise. If you could pinpoint, one, two, 
three, what where those things that you said, ``Wow, here's 
where we better get some focus on,'' knowing that you took an 
incident from 1964, but transplanted it in current times and 
then used the logistics chain of today, what were those two or 
three things that you could say, ``This is where we better get 
some focus on, because we have not done enough or there needs 
to be significant improvement based on an earthquake disaster? 
''
    Mr. Madden. Senator, I designed the exercise so that we 
would--it was an exercise of discovery more than anything else 
and in the first 3 days, while our local communities, and there 
were a dozen or more that had a truly challenging exercise, we 
needed to discover the areas in which our excellence at the 
small and medium disasters well served the catastrophic or did 
not, and we found that while we have excellent records on the 
Yukon floods and the Kuskokwim River floods and the sea storms, 
none of those reached the complexity of the catastrophic, so I 
wanted to--and then in the middle of it, reconfigure, and what 
we did was put into place some of our thinking over the last 2 
years of we are smart enough in peacetime to gather people 
together with the right skills and abilities and authorities to 
solve most of the problems, the big ones on health, on 
transportation, on public safety, on search and rescue, and 
when we put those into place during this exercise, we found 
that was a good investment.
    The same people we work with in peacetime, we work with in 
the event and that's a little bit different, because it is not 
easy for a State to maintain those types of groups through 
peacetime.
    We also found that by having the State being the functional 
area in which our Federal partners fall in on, there would not 
be that confusion about logistics. We would have our Alaskan 
experts alongside of FEMA's logistical experts and we would 
start solving problems, but the key was the participation in 
the problem-solving, rather than waiting for a mission 
assignment, rather than finding things at the end of the 
process where there could be an impediment or a problem. Let's 
get those impediments and problems at the beginning and that's 
one we had not done into realistic and rigorous standards, and 
we did that.
    The other one we found was that we had a little stumble for 
a few hours on the dual status command process about how the 
Governor requested it and the Secretary of Defense approves it, 
but then all the mechanics of how to get the full weight of 
thousands of troops under this dual status command.
    It turned out very good, but we had underestimated their 
ability to form rapidly and we did not have the right parts of 
the scenario. So late Saturday night, using my own 
understanding of it, I injected a few things that could only be 
solved through a joint National Guard and active duty and they 
formed in very well, but I also worked it out so that no 
mission in this entire exercise was the responsibility of one 
group.
    Every single mission was joint, Federal and State, State 
and local, private sector and public sector, volunteers and 
other non-governmentals, requiring it to be tested vigorously 
on how do we work together in peacetime.
    Chairman Begich. Because you saw some of those 
modifications, are those things now that are systematically 
going to be implemented, so you do not have to--like you 
mentioned the couple of hours of bumps there, but 
systematically that you will be able to look back and say, 
``OK, this is what we are going to change so we do not have 
that 2, 3-hour delay,'' or I should not say delay, but the 
bumps that you had there? Is that a systematic change you think 
you can do?
    Mr. Madden. It is systematic and----
    Chairman Begich. It sets into play now?
    Mr. Madden. Within our uniformed partners, both Guard and 
active duty, we met for hours yesterday to make sure that we 
captured every one of those things that we need to then 
institutionalize. The other things of our relationship with 
private sector, our use of the volunteer organizations, our 
problem-solving enterprises, those task forces, we put those 
into place in the last 2 years and have been using them very 
effectively on our predictable disasters and this exercise was 
the one in which we wanted to turn up the heat and really try 
them out.
    We found a few things there about how much we can solve in 
peacetime and how much is going to be relied upon the event.
    Chairman Begich. Got you.
    Mr. Madden. So that problem-solving and the ability to 
adapt--the biggest discovery I think we had across all of the 
people participating is that realization that a plan cannot and 
does not make a decision, a leader does, and to have the plan, 
such that has guidelines and that the plan is a point of 
adaptation and I think many times throughout the Nation, we 
have exercises in which the disaster is moved over to fit the 
plan----
    Chairman Begich. Right.
    Mr. Madden [continuing.] Rather than the plan adapting 
over----
    Chairman Begich. So you have more situational awareness?
    Mr. Madden. Yes, sir, and then when we had 300 people: 100 
from the State, 200 from our Federal partners all together in 
the Egan Center with their joint field office. It was 
heartening as to how rapidly that group changed over to this 
approach of problem-solving leading to decisions, leading to 
the missions and the missions were far more coordinated. We 
will be taking our discoveries and refining them so that we can 
make it last.
    Chairman Begich. More systematic then?
    Mr. Madden. Yes, sir.
    Chairman Begich. Let me ask you one last question because I 
want to move to the other panel and give time, but this is one 
that actually came up in the last meeting, and for the folks 
that are here who talked to me about pets, this is one that's 
interesting. I became more and more aware of it as I have been 
chairing this committee, but also just in my work when I was 
Mayor.
    In that planning, and I think there's a fair statement that 
would be made, that we saw it in Hurricane Katrina and others 
where people will not leave their homes without their pets and 
they create a bigger problem, and then here in Alaska, it has 
dual issues, pets, but also dogs can be transportation issues 
in the smaller villages in the wintertime.
    So how do one of the concerns we have heard is there's not 
enough effort by the State to recognize that as a part of the 
broader picture or making sure there's an organization ready to 
be able to be pulled locally or within the region. This is kind 
of a new issue for me, so I am just going to put it on the 
table and I do not know if you have a response, but I would 
love to get your thoughts and maybe now or into the future on 
this.
    Mr. Madden. There were two components of this, Senator, and 
one is on the local and several of our jurisdictions that 
participated in the Alaska Shield did have pets as part of 
their sheltering function and in----
    Chairman Begich. Pets with families or pets separated?
    Mr. Madden. Pets adjacent to.
    Chairman Begich. OK.
    Mr. Madden. And I think Cordova had several of their high 
school students be part of that response to aid in the shelter 
and also aid with the pets just immediately outside. In a 
larger sense, within the joint field office, we had the 
professional assistance from U.S. Department of Agriculture 
(USDA) that has a primary Federal role to supporting this.
    We ran missions of how do we obtain the right number of 
cases and dog cages and food as part of those problem-solving, 
and the reason we gave this such an emphasis, sir, is that in 
the ``Life'' magazine from April 1964, it had a full page 
picture of a gentleman, one of our elders with his big dog in 
his lap asleep because the dog was too frightened from the 
earthquake.
    Chairman Begich. Right.
    Mr. Madden. The dog's name was Beauty and the headline what 
the man said was; ``All I have now is my Beauty. I have nothing 
else to live for.'' That's what I show to all the people so 
they can get it--it is not the numbers. It is the humans and 
where there's humans, there are the animals.
    We found that we needed to pick up the pace and be able to 
do things earlier, which is part of the reason why we exercise.
    Chairman Begich. Very good. Thank you very much. I thank 
both of you for this first panel. Let me move to the second 
panel and I will start with George Keeney, Fire Chief of the 
Valdez Fire Department and again, I thank all four of you for 
being here and thanks for--we will pass that microphone as it 
goes, but I appreciate it. Thank you very much.
    Is that mic on? Make sure. Is it green?
    Mr. Keeney. It's green.
    Chairman Begich. OK, you are good.
    Mr. Keeney. Can you guys hear me?
    Chairman Begich. For some reason, get ready, we might swap 
mics here in a second.
    Chairman Begich. Is that good?
    Mr. Keeney. How about if I go closer?
    Chairman Begich. There we go.

TESTIMONY OF GEORGE KEENEY,\1\ FIRE CHIEF AND EMERGENCY MANAGER 
                     FOR THE CITY OF VALDEZ

    Mr. Keeney. I'm George Keeney. I am the Fire Chief and 
Emergency Manager for the city of Valdez. The question on first 
responders in my definition is everyone. In my community, I 
rely on everybody to respond, no matter what age.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Keeney appears in the Appendix on 
page 42.
---------------------------------------------------------------------------
    You do not have to be a medic or a fireman or anybody, in a 
sense, you have to be part of a family or part of the community 
and that's what we pull in. Part of this, though, is the 
training of those folks.
    Believe it or not, in Valdez, I am well known for my 
disasters, especially with Alaska Shield. It seems like we 
planned for Alaska Shield--I have lots of disasters before that 
hits, practicing for the exercise.
    Chairman Begich. Your real-life practice?
    Mr. Keeney. It is real-life. The one thing, though, is we 
teach our youth and we start out from elementary school--we 
have backpacks for their drills, for their evacuation. We have 
a web page where they can go on there. They can fill out 
information about their families and so forth. So we teach our 
youth.
    You folks in the crowd right here, I am glad to see the 
youth are here because you are the ones that actually are the 
responders that I want to make sure I train. I can train us 
older folks and hopefully, they will learn, but you guys are 
the ones that I want to really teach and that's what we do.
    We try and hit everybody from elementary all the way 
through high school. I run an Explorer Post and in that is in 
my fire department, and those young adults are actually taught 
to be CERT instructed or CERT trained and then also, they're 
usually taught emergency trauma tech (ETT), and what they do 
then is, since they volunteer for me, I use them the best I 
can.
    I have them go to all the games and stuff, and standby. So 
that gets their skill level real good and my daughter's a real 
good athlete and she's actually one of my ETTs, so she might be 
playing or doing something, somebody falls down and gets hurt, 
she will automatically go into that role of an emergency trauma 
tech. She will take care of that person. So my youth actually 
take care of us old folks, because it is usually us that fall 
down and get hurt.
    The other thing is we try and teach as much first aid and 
CPR in our classes as we can. I teach probably 100 to 150 
people a year first aid classes myself. I teach all kinds of 
EMS. I am an EMS instructor. Through Mary Carlson and her crew 
over there, she makes sure I do it right, but anyway, what we 
do is we teach as much into our public and then as they all 
know, once I do my roster, my roster then becomes part of my 
emergency plans, because now I have your name and your phone 
number and your email address and I can get you at any time. So 
I use those folks.
    Drills and stuff, we use as much in drills as we can on an 
annual basis. If we have an exercise, whether it is an oil 
spill, whether it is a plane crash, I will moulage, fix them up 
so they look real bad and then I will have all the responders, 
I will even pull in boy scouts and girl scout teams to actually 
go in there and take care of their kids or their--actually 
adults and--I use those kids in my drills.
    The one thing I have found that those kids love to be the 
victims. Well, believe it or not, as victims, you learn a lot 
about your care and you learn, what they are doing to you and 
you can see that, and so the youth that we use, I use them as 
my volunteers. I will throw them out there in all the exercises 
and they will see that too.
    This last Alaska Shield, like you brought up, we have 
thrown about 300 people at different locations into all kinds 
of disastrous stuff. I have even thrown people in the water in 
this drill and actually, it is cold. We had the Coast Guard 
responding to those folks and they did a fantastic job, along 
with a State Trooper vessel that we had out there and the State 
Parks and actually, I used one of my State Park rangers, 
because he is a good medic, I put him in a dry suit and 
moulaged him up and threw him up. I said, ``You are one of the 
casualties.'' So they had to take care of him ,too. So he got 
to see the whole thing.
    The one good thing out of all of these exercises, the more 
we do it, the more muscle retention you have as to exactly what 
you are doing and then that skill stays in the brain, and what 
is neat is seeing those exercises work in our community. It 
works in a true emergency or disaster.
    We have had quite a few accidents lately in our community 
where this last big one was a 50-person mass casualty. We had a 
school bus full of cross-country skiers and the chaperones run 
into the back of a semi-truck. We set up an alternate care site 
at the elementary school. We had teachers, parents coming in 
there, responding to that incident just like they would on any 
time I ask for help.
    We also had medics and Explorers at the alternate care 
site. We were able to use those folks to actually take care of 
the young kids and adults, and then get them to the hospital as 
we needed to or as we could and yes, the critical ones went 
right there, but that type of training, as we work it through 
the whole process, we teach our youth and our residents in the 
community. They see that too and what is neat about Valdez is 
they pull in on all these exercises and we have more and more 
want to play.
    We just finished up Alaska Shield this last week and then 
we ended up having a first aid class taught by the National 
Guard crew and believe it or not, I had 40 people and the 
residents there that wanted to take that class, too, a 2-day 
course. That's how involved they are in our community.
    You, as the youth, and--you need to push it that the youth 
need to learn about what hazards they have in their community 
and be able to respond to it. As an emergency manager, I love 
teaching all the aspects of emergency management and in that, I 
push all the education to the kids.
    The one thing that I know our FEMA Director said that, they 
are there to help the State and guess what, the State helps the 
city, but it is the residents in that city, it is their 
problem. It is their emergency. They control it. They respond 
to it. We, as the city or local government, yes, we are there 
to help too, and we are going to do it. It is all of our city 
organization, it is our accident. It is our emergency. It is 
our disaster and we respond to it.
    We ask the State--and what's fantastic about this State is 
I have some folks over here too, I know these folks by their 
first name. I do not have to say, I can say Mr. Madden because 
I usually call him Mr. Madden anyway, but I could actually go 
up to him and say, ``John, I need your help,'' and I can call 
him 24 hours a day and he would respond or his team. Mike and 
Brian and the rest of them over here, they would actually 
respond. So it is that first-hand knowledge that has gotten 
through the exercises, and what we have learned and how we have 
learned it to where we can actually call them up.
    I can call these folks up 24 hours a day and even in 
damalanche, which is not a nasty name. It was an avalanche that 
created a dam in Keystone Canyon. Believe it or not, my city 
manager and the police chief and I were sitting in an office 
and we were discussing it and quickly he said, ``I need to talk 
to an expert. I have to talk to an expert about this avalanche, 
because I do not know if I want to take and shut down this 
subdivision and set up a shelter.'' He says, ``What do I do?'' 
I said, ``Well, let's talk to the expert.''
    So I called Cary over there at the SEOC, just called their 
800 number and said, ``I need to talk to Cary down there in the 
SEOC.'' I said, ``I need an expert.'' Within about 2 minutes, 
he had someone in from River Watch, one of the professors, and 
she was able to get on there and believe it or not, with 
technology, she said, ``Hold on a second, I am looking at 
something,'' and then pretty quick she said, ``I am looking at 
your site there. Yes, you guys got a problem and it is a big 
one,'' and then at that time, she was able to tell us within a 
couple of minutes what her opinion was about that disaster. 
Well, that technology did that and also the fact that we had 
the State SEOC that was set up to where they can respond to our 
emergency within seconds and actually take care of our 
situation, and provide that technical expert to where we can 
turn around and tell the people in that subdivision, ``You have 
to move out, folks. You need to voluntarily move out.''
    We had 885 million gallons of water behind that dam. That's 
what the low river gave us. So Alaska Shield, we were testing 
tsunamis and I was ready to test a tsunami in Keystone Canyon. 
So it was a little bit scary.
    That inter-relationship has to stay. The inter-relationship 
with health and social services, I do the same thing with Mary 
Carlson and her crew. It is a one name type thing. I can call 
her or any of her crew. I know them personally because all 
these exercises we do. It helps the community, but it takes 
those in the community to be able to respond.
    So when, as a planner, as an emergency manager, I love 
teaching this. I will respond to everything that we have in our 
community, but the one thing is I definitely have to have that 
back up and that's what we use.
    Chairman Begich. Thank you very much for that. Let me go 
ahead and go to Victor Joseph, who's the new President and 
Chairman of Tanana Chiefs. It is very good to have you here. 
Thank you very much, Victor, for being here.

 TESTIMONY OF VICTOR JOSEPH,\1\ PRESIDENT AND CHAIRMAN, TANANA 
                       CHIEFS CONFERENCE

    Mr. Joseph. Thank you, Senator Begich. Tanana Chiefs 
Conference (TCC), serves 42 tribes throughout the Interior of 
Alaska. The comments and descriptions I will be discussing 
today are written to highlight TCC's work in emergency 
response, problems experienced and some ideas for solutions to 
move forward.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Joseph appears in the Appendix on 
page 44.
---------------------------------------------------------------------------
    TCC has taken an active role in disaster response since the 
break-up floods in 2009, when it appeared that quick action was 
needed to protect health and safety and again in 2013.
    TCC prepares every spring for breakup flooding. Our 
preparations include making a list of medically fragile 
patients in each community, coordinating with the State 
Department of Homeland Security, Red Cross and others, working 
with the airlines to prepare for evacuation charters, 
purchasing supplies and keeping staff and others informed.
    TCC has made significant efforts over the years to 
encourage and assist emergency planning at the local level in 
TCC villages. During the disaster response, TCC seeks to do 
what is necessary to protect the health and safety of community 
members throughout the TCC villages.
    TCC has provided the following responses during disasters; 
evacuate medically fragile village residents, charter flights 
to evacuate village populations at large, purchase and deliver 
emergency supplies, shelter evacuees, act as a vendor for the 
State of Alaska, provide health care and assist in setting up 
emergency supplies and treatment services.
    In a recovery stage, TCC engages in the recovery process, 
although not to the degree that we engage as in the response. 
The main task TCC takes during our recoveries are: helping 
communities with project worksheets and reimbursements, assist 
tribes with recovering public buildings and facilities, such 
as, clinics, water treatment plants, wastewater facilities and 
landfills.
    The problems that we see in planning and preparedness, the 
most significant problem in the area, is creating effective 
plans in each community and a lack of training at the local 
level.
    Planning and preparedness solutions that we see is provide 
training for local employees that can lead the planning effort 
and ensure the plan is exercised annually.
    Response problems, the biggest problems with the response 
effort has been coordination. Once again, I would be looking at 
the Galena flood as I am talking about this. The lack of 
coordination and the number of parties involved in the Galena 
evacuation was very confusing. There were airplanes showing up 
at the airport full of evacuees and nobody knew who was coming 
or going, and it happened very haphazardly and people were put 
throughout the State of Alaska.
    Part of that confusion was when we were ready to send 
charters, the State of Alaska was not prepared at that time to 
authorize the flights.
    In summary, the lack of communications during the Galena 
evacuation proved very difficult. Confusion during the 
evacuations, State policy conducting rescues, not evacuations 
led to the slow response, slow emergency evacuations and a lot 
of confusion.
    Response solutions are improve the State policy on 
authorizing an evacuation, and locate facilities and purchase 
supplies ahead of time.
    Recovery problems, TCC does not normally interact with FEMA 
until the recovery stage of the disaster. Once the recovery 
begins, many problems become apparent. The dual State FEMA 
damage assessment is a problem for home owners and tribal 
governments. It appeared to add delays and seemed duplicative 
and unnecessary to people trying to rebuild their homes.
    Some of the policy that FEMA applies is not consistent 
throughout. There were several procurement issues that also led 
throughout this process and established a lot of concerns about 
getting things that may be a little more appropriate for the 
area.
    Over the past several disasters, TCC has developed a good 
working relationship with the State of Alaska Department of 
Homeland Security and I really appreciate that. It has meant a 
lot to our region, but it--and FEMA's communication with the 
local government, individuals and regional problems, that is 
some of the concerns and we would like to see how we can 
establish better relations there.
    So our solutions for recovery are combine:, the dual damage 
assessment process, to expedite that, develop a checklist or 
flowcharts to make the process of seek and assistance from FEMA 
easier to understand, improve communication with the tribal 
governments, potentially include regional 8(a) profit 
corporations in the process and ensure that information is 
getting to the affected individually timely.
    I would like to see that FEMA and TCC establish a 
relationship similar that we have established with the 
Department of Homeland Security to expedite the process. In my 
report that I submitted, there's Appendix A, Senator Begich, 
and that's from the city of Galena, the tribe and the comments 
that they offered. Thank you very much.
    Chairman Begich. Fantastic. Thank you very much and just 
for the record, not only testimony, but the submitted 
information also is all part of the official record. So I want 
to make sure and I got a good packet from you. So I thank you 
for that, Victor.
    Let me move to the next panelist, Dr. Koehler, Chair of the 
Rural Committee on National Association Emergency Medical 
Service Physicians. Doctor.

  TESTIMONY OF DANITA KOEHLER,\1\ MD, CHAIR RURAL COMMITTEE, 
 NATIONAL ASSOCIATION OF EMERGENCY MEDICAL SERVICES PHYSICIANS

    Dr. Koehler. Thank you for holding out, everybody. I Am 
going to switch up a little bit with your permission, Senator?
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Koehler appears in the Appendix 
on page 50.
---------------------------------------------------------------------------
    Chairman Begich. Sure.
    Dr. Koehler. Because what has been said, George and I are 
both field people. So I have two challenges. First, to the 
people in the audience, some of the new leaders in disaster 
management, the challenge is to get involved now in your 
volunteer local agencies, EMS, ambulance services is the common 
name. We need your help. We're in a crisis in recruitment and 
retention of volunteers.
    As George will tell you, there is nothing more gratifying 
that saving a life. Come join us, and with that, if the 
gentleman that I met, who is in search and rescue, could you 
stand up, please?
    What I am saying is dedicated to him and 49 plus other 
search and rescue organizations in this State, 49 that are 
composed of volunteers. EMS in this State is also largely a 
volunteer system. These are selfless, dedicated volunteers who 
are out there at 2 in the morning, 40-below, responding when 
you call 911.
    We have taught the public to call 911, sir, and they do 
anytime day or night. We need your help. There's just a few of 
us. Most of us have been doing this for 30-some odd years. It 
is a wonderful career and the next generation of EMS is 
preparing for career progression that includes disaster 
management interweaving, lots of opportunity.
    The second challenge is to the Federal disaster 
preparedness and your Senate Subcommittee. I apologize, some of 
this will be boring. Emergency medical services providers are 
the initial health care providers at the scene of disaster.
    They are often the first to recognize the nature of 
disaster and can immediately evaluate the situation and 
determine the need for resources. Response is provided by 
various levels. In our State, we have a unique program called 
Emergency Trauma Technician Training and you all can get that 
at the high school level and you should.
    Everyone in this audience needs to be proficient at hands-
only CPR. You can save a life. It is the most gratifying thing 
you will do.
    It is important to understand, sir, that EMS providers may 
be the first to apply crisis standards of care. The dispatch 
and field providers are integral partners in local, State, 
tribal and territorial efforts related to development and 
implementation of crisis standards of care planning.
    In crisis standards of care, the goal is not necessarily to 
save everyone. That's a hard thing to get your head around. It 
is rather about saving as many lives as possible with the 
resources that are available. Prehospital EMS is the only 
safety net of access to emergency care on a day-to-day basis 
for everyone in this audience, and for all who are listening 
in, but in fact, during a disaster, Senator, EMS is the 
gatekeeper of protection to a nation's health care 
infrastructure.
    EMS is responsible for approximately 1 percent of the 
country's health care cost, but such a small train drives 
approximately 40 percent of our overall health care 
expenditures. While our daily mission is to triage, treat and 
transport patients to the right medical facility the first 
time, in a case of a biochemical attack, ambulance crews must 
recognize and ensure only decontaminated patients arrive at the 
door of an emergency department. Failure to do so will result 
in cross-contamination and an infrastructure crisis from 
hospital closures. In Alaska, there's 24 hospitals. In 
Fairbanks, there's one. In many of our regions, there's one.
    EMS matters and it needs to be, this is according to the 
feds, it needs to be at the table of every policy conference, 
and needs to be targeted with specific funding and a lead 
Federal agency.
    There are eight major sources of funding for EMS, again, 
thank you for your patience with me, one, Center for Disease 
Control (CDC) and Prevention. This is primarily for public 
health departments to build a capacity for infectious disease 
emergencies.
    A young person in the audience that talked to me about 
vaccinations, CDC operates this area. Eighty percent of State 
EMS offices have no or occasional involvement in this grant 
program.
    The second of eight EMS potential funding areas, Pandemic 
Flu Supplemental funding. More than half of State EMS offices 
reported no or occasional involvement in this grant program. 
Third, Emergency Management preparedness grants. Eighty-five 
percent of State EMS offices have no or rare involvement or 
were not eligible for these funds.
    Fourth, Public Health and Human Block grants, although all 
State EMS offices were eligible for funding, 65 percent 
reported no involvement in this grant. Fifth, Hospital 
Preparedness Program, Assistant Secretary for Preparedness and 
Response, more than half of State EMS offices have no or 
occasional involvement or were not eligible to participate in 
this grant.
    No. 6 of eight, Department of Homeland Security grants, 62 
percent of State EMS offices have no or occasional involvement 
in this grant program. No. 7 and eight are important for you in 
Alaska in the rural areas, Urban Areas Security Initiative, \2/
3\ of State EMS offices have no or occasional involvement in 
this grant.
    No. 8, Metropolitan Medical Response System, nearly \3/4\ 
of all State EMS offices had no or occasional involvement in 
the Medical Response System for metropolitan areas.
    For rural and remote areas, for tribal areas, where is the 
equivalent of Urban Area Security Initiative? Where is the 
equivalent of Metropolitan Medical Response System? So as to 
not sound doom and gloom, Mary Carlson, will you stand up?
    Mary Carlson is your Chief of Emergency Programs in the 
State of Alaska and truly a dedicated selfless serving person 
who is a mentor, a friend. Thank you for the work you do, Mary, 
and thank you for these lessons learned from the Capstone 
Alaska Shield 2014.
    The information gained at the local, State and Federal 
level from Federal partners from Alaska Shield could not have 
been replicated without full scale play. So thank you, our 
Federal partners. Forward patient movement from the disaster to 
casualty collection points, alternative care sites, and 
disaster air medical staging facilities are complex actions 
involving multiple agencies, and they are only understood when 
practiced.
    For you young people, wouldn't that be fun to play in next 
time? We learned, for example, that even using every available 
transport asset equipped for litters, ambulances, an ambulance 
bus, a dual use fill vehicle that we could transport a maximum 
of 24 patients, when the receiving medical treatment facility 
could have handled 50.
    Bariatric and special needs patients will require special 
transportation knowledge during disaster, as equipment and care 
requirements are different and affect maximum throughput for 
patient evacuation.
    For example, a bariatric patient will be required to lay 
flat on a military medical transport during the flight with 
current arrangements for standard transport of a medically 
unstable patient. The litters are available, but this limits 
the total number of patients transported in a single flight.
    The ability of EMS providers and hospital personnel to be 
aware of these fine distinctions in the triage and resource 
allocation are critical to the success of the overall mission, 
and what about children? We also learned there are minimal 
military resources available with specific pediatric 
capabilities and those require deployment time.
    Specific funding and training for critical pediatric 
stabilization and transport must be strengthened in order to 
respond effectively. This is not just in Alaska. This is 
throughout the country.
    In the small port town of Valdez, my friend George, and 
further up north toward Glennallen, we clearly illuminated the 
crisis in volunteer EMS systems that struggled to sustain daily 
operations, and do not, I repeat, do not have the ability to 
surge the uniformly throughout this Nation, not just Alaska, 
are the forgotten heroes of first responders.
    I recommend a concerted effort by all States to access the 
true value of their volunteer EMS systems, Mr. Madden, and 
transform the next generation of EMS to be supported by 
volunteer labor, but not solely reliant on it. You will not 
miss us until we are gone.
    Some of the best practice and most interesting things, sir, 
for your Subcommittee are this; Alaska was the first State to 
stand up and operate a State-owned former Federal medical 
station now known as the Alaska Medical Station.
    The purpose of alternate medical treatment sites are to 
decompress hospitals and allow access to care for those 
patients less seriously injured or ill. In this exercise, local 
EMS providers worked side-by-side with military medics, as well 
as volunteer nurses, physicians, support staff and the Alaska 
Department of Health and Social Services. This is another 
opportunity for you all to volunteer.
    What we learned is that while the roles of basic responders 
are clear, anything beyond basic life support demonstrated a 
lack of interoperability between military and civilian licensed 
EMS, nursing and medical providers. Support in a catastrophic 
event and during recovery will be hampered if States are not 
part of the proposed interstate compact for licensure of EMS 
personnel. To not bore the audience, more information is in the 
written part of my testimony.
    I will say this one thing that is not in that extra 
information in support of my tribal partner, the interstate 
compact for licensure of EMS personnel is exactly what we need, 
but for the places in this country that are impoverished, for 
those places in this country that are tribal reservations, that 
are off-road where there are so few volunteer EMS providers, 
this interstate compact, before it is fully vetted, must ask 
these people what will work for them. It is one gap that we 
need to address.
    A second and last--thank you for your time and patience 
with me. A second best practice that I think your Subcommittee 
members from the rural States need to know about; the frontier 
extended stay clinic model is a best practice for rural States.
    Alaska's frontier extended stay model of 24/7 emergency 
care on a day-to-day basis, as well as in disasters, is a best 
practice model of disaster preparedness for rural and remote 
areas of our Nation. These federally qualified health centers 
are located in communities in Alaska where hospitals are not 
easily accessed and are designed to address the needs of 
seriously ill or injured patients who cannot be transferred 
quickly.
    This matters even to you in Anchorage and Fairbanks and 
other urban centers in this country. These few clinics that are 
positioned in the areas where you go to travel, to recreate.
    They have the ability to initially provide life-saving 
emergency care, monitor and observe patients for up to 48 
hours. Why this is important to preparedness on the Federal 
side, sir, is that during the very time that hospitals are in 
most need of decompressing from receiving patients, these 
frontier extended rural clinics have the ability to stabilize, 
treat, monitor and observe patients during that first 48 hours.
    It is a little known pilot project which was started in 
2003 and again, important for Members of your Subcommittee from 
Montana, Wyoming and North Dakota.
    Chairman Begich. Doctor, can I have you summarize your 
comments?
    Dr. Koehler. Thank you for the opportunity. How's that?
    Chairman Begich. That's pretty good. Thank you. I know you 
had more testimony and additional information in your written, 
I thank you. We are right at the time, but I want to--very 
important to have the last speaker, Mike Abbott, Assistant 
Superintendent of Anchorage School District, so you go ahead 
with your testimony.

 TESTIMONY OF MICHAEL K. ABBOTT,\1\ ASSISTANT SUPERINTENDENT, 
                   ANCHORAGE SCHOOL DISTRICT

    Mr. Abbott. Thank you, Mr. Chairman. First, on behalf of 
the Superintendent, the Anchorage School Board, the students 
and the staff here, let me welcome you to South Anchorage High 
School. This is one of our newer buildings. It is a great 
school. The wolverines of south Anchorage are nationally 
acclaimed for many academic, as well extracurricular 
activities, and I know they are very proud that the 
Subcommittee is with them here today.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Abbott appears in the Appendix on 
page 54.
---------------------------------------------------------------------------
    I will be very brief, Mr. Chairman. We have presented 
written comments that we are more than happy to respond to 
questions about at any time of the Subcommittee's desire. The 
school district is--I believe sets a national standard for 
preparation and preparedness for disaster response, both at the 
school level, our annual emergency action planning efforts, as 
well as our community support efforts, I believe are among the 
best in the Nation.
    Our partnerships, especially with the Municipality of 
Anchorage and also with the State and our Federal partners, our 
partners with the Department of Defense (DOD), as you know, the 
JBER operation has a large percentage of Anchorage's 
population, as well as a number of Anchorage School District 
facilities on the installation.
    We work with all of those folks closely and I believe we 
are well prepared in the event of an emergency here in 
Anchorage and we take that responsibility very seriously. I 
think if you spoke with any building principal, you would find 
that their No. 1 priority is to make sure that their students 
and staff are safe, whether that's on a regular school day or 
in the event of an emergency.
    The planning, preparation, drills and exercises that they 
participate on at their buildings, as well as the district 
systematically, I think put us in the excellent position to be 
successful.
    On any given day, perhaps even earlier today, approximately 
10 percent of the population of the State of Alaska is in an 
Anchorage School District facility. As a result, we have a very 
significant working responsibility to be prepared in the event 
of an earthquake or a wildfire or any number of other types of 
emergencies that might call on our students and our staff to 
equip themselves well, both for their personal protection, as 
well as to offer support for the rest of the community and 
Anchorage. In our partnerships with the rest of the community, 
we feel that we have invested both time and resources in that 
preparation effort and Senator, with that, I will close my 
comments this afternoon and make sure we are available for any 
questions there might be.
    Chairman Begich. Fantastic, I know we are over time, but I 
will ask just a couple of quick questions, but first, I will 
start with you, Mr. Abbott, thank you very much. Thanks for the 
tour of the facility outside. We got to see one of the 22----
    Mr. Abbott. Twenty-two.
    Chairman Begich. Twenty-two locations that you have 
designated. What happens, how is the school district prepared 
knowing--let's say there is a disaster that occurs, let's say 
it is here or let's say it is any one of the schools, but you 
know you have parents and community members who might be 
working or living in Girdwood, Mat-Su, wherever else. How does 
that work with managing those kids and making sure the parents 
have that information as quickly as possible?
    This is one of those common kinds of questions. We had an 
incident in Washington, DC. My son goes to school there during 
the school year and then back here, obviously, during the 
summer and the school was on a shutdown, and how that 
communication worked, it was very efficient and no matter where 
we were, I was actually traveling and I was able to get a text 
message very quickly on what the status was. How does it work 
in the school district here and how do you deal with parents 
who do not live in the Anchorage Bowl?
    Mr. Abbott. You bet. The school is prepared to provide 
immediate shelter and support for the entire student population 
and the staff, as well. So if there was an emergency, the 
initial priority of the building would be to ensure the safety 
and security of the students and staff that were on the site at 
the time of the event.
    Immediately thereafter, once that has been secured, once 
the facility and the people have been made as safe as possible, 
then we begin to try to communicate with parents and families. 
If the normal communication tools that are available to us 
normally are available, we will use those and we have a variety 
of systems that allow us to use telephonic and digital 
communication to reach folks.
    We also take advantage of the media, as well. We encourage 
families to, if they can, to come and get their kids and in a 
situation like a secondary school, like a high school like 
this, many of our students might well decide to discharge 
themselves and make their own way back and there's a procedure 
where we are able to determine whether the students are in a 
position to do that or not, and we follow that procedure.
    For dealing with elementary school age kids, obviously, we 
are not going to release them, unless there's an appropriate 
adult. We insist on getting the best possible emergency contact 
information. That's why it is very important that you not only 
make sure that parents themselves are listed, but any other 
adults that might be in a position to support your family in 
the event of an emergency are also listed as school contacts, 
because we want to make sure that if someone comes to the 
school and says, ``Hey, I should take John home with me. I live 
next door.'' We want to make sure that we are in a position to 
help make a good decision as to whether that's the appropriate 
option for Johnnie.
    If there are children that ca not get home for whatever 
reason, we have plans in place to make sure that we 
concentrate, if you will, the kids from a variety of buildings 
that might not be available to--or might not be able to get 
home. We concentrate them and we are prepared to take care of 
them for as long as necessary, days, weeks, whatever's 
appropriate and with that, of course, the whole community would 
be involved in the response at that point, and would be 
supporting the district in making sure that those kids were 
well-taken care of.
    Chairman Begich. Thank you very much. I am going to ask two 
last questions, and I know the Administrator has to catch a 
plane. So I am going to be very quick here because I know many 
of you and Doctor, I am going to probably not ask you one, 
because you gave me so many ideas I have written down here, but 
also, I know your testimony is very strong in the sense of some 
of your recommendations.
    I know also, Victor, you had some good recommendations. So 
I want to ask you--one statement that you made, I want to make 
sure I understand what you do. Is it right that as TCC, you do 
an annual assessment of those that may need special care to be 
transported out in case of emergency? What I was not sure I 
caught that 100 percent. I want to make sure I understand that, 
and that leads to my question for the Chief I am going to ask 
next, so----
    Mr. Joseph. OK.
    Chairman Begich. Did I hear that right or----
    Mr. Joseph. Almost.
    Chairman Begich. OK.
    Mr. Joseph. What we do is as we are following the report 
and as it is breaking up or if a community's endangered, we 
start looking immediately at those ones that are medically 
frail.
    Chairman Begich. So they are at--when that community's 
becoming potentially at risk, you do a quick inventory of what 
individuals may----
    Mr. Joseph. Yes, but we consistently have that information 
on-hand so it does not take us very long to bring it up through 
our electric health records.
    Chairman Begich. Got you. OK, that's what I think that's a 
great idea. I think that's fantastic. For the Chief, you had 
mentioned, and I thought it was interesting, you had talked 
about all these resources from volunteers and people you are 
training and so forth.
    Can you at any given time say, ``OK,'' because Valdez is 
one of those communities that could be isolated, right? We have 
seen that, right?
    Mr. Keeney. Yes.
    Chairman Begich. So do you know at any given time within 
your community, here's an inventory of people who have had 
certain training or, ``Gees, we know maybe they were a 
physician, but they're retired, but they are in this 
practice,'' so you could call on them or, someone, like I would 
use Donny Olson as an example up north. He's an attorney. He's 
a doctor. He's a pilot. Two of those are good in emergencies. I 
will leave you to try what the third one--I can say that, but I 
mean, right, so you kind of can, I know if I am with Donny, I 
am feeling pretty good, but tell me, do you have that kind of 
inventory or is that something that--I mean, I was thinking 
that's a great idea of all the people you are training----
    Mr. Keeney. Yes, the medical corps actually does have that 
same process. In Valdez, what we do is I have a list of those 
folks that have been retired, have any medical training, all my 
first aid/CPR classes, all those rosters. What's amazing, too, 
is just like the bus crash, I sent out word that I needed a few 
more medics, and within, I would say 30 minutes, I had 45 
medics right there at my gym and they were ready to respond and 
yes, we had some that had not been in the service right away or 
active, but yet, they were quickly pulled in. We do have a list 
and also the hospital has a list of those that are in the area.
    Chairman Begich. That you can tap into?
    Mr. Keeney. That we can tap right into and then Mary 
Carlson and her group, they are working on credentialing and so 
forth. That's the one big issue. If I have the City Manager or 
the Mayor declare a disaster, then there's some other forms 
that we can pull credentialed people in on and so we even have 
that option, too.
    Chairman Begich. Let me end on this with a comment for the 
Doctor. You mentioned quite a few things and they were very 
good, frontier hospitals are something I aggressively support 
for all the reasons you said, 24/7, it is a fantastic program. 
I think some of the urban centers do not understand the value 
of those, and it is something we are constantly working to 
educate, but not for today, but I would like to get going to 
have my team followup with you on the eight grants or eight 
funding sources, I should say, and some of your data points, 
because I would be very interested in what we can do 
functionally within our role of how to increase that capacity 
of engagement, because I think that's a good point.
    I'm a believer in EMS. I have been saved by EMS. I remember 
the Spirit of Youth organization, which I will be at an event 
tomorrow night. Many years ago, we presented an award to a 
group of young women under the age of 18 that had already 
become EMS or gone down that path of being trained.
    It's incredible. You know what I'm talking about? I can not 
remember the group. They had a name and it was very catchy 
name, but very powerful of what they can do. So I want to make 
sure my team follows up with you, if that's OK, because I think 
you had some really interesting data points that are worthwhile 
for us to figure out what can we do to create that engagement, 
if that's OK.
    Well, first, let me say, again, to the witnesses, to our 
guests and always our regular guest, kind of like a talk show 
host, John, you are always here, thank you for being here and 
thank you for the information. This has given my Committee more 
information that we can use to help craft policies that we hope 
will be improving and can improve emergency response, may they 
be in catastrophic or otherwise, and so we thank the panels for 
being here, and to staff, do I need to do anything technically 
here? OK, the record will be open for 15 days for other 
questions or additional information that may be desired by 
other Committee Members, and we do thank everyone for being 
here and again, thank you to the panelists that were here 
today.
    At this time, the meeting is adjourned.
    
    
    
    
    
                            A P P E N D I X

                              ----------                              

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre></body></html>
